<html>
<title> - [H.A.S.C. No. 111-163]SECURITY AND STABILITY IN PAKISTAN: DEVELOPMENTS IN U.S. POLICY AND FUNDING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 111-163]

 
  SECURITY AND STABILITY IN PAKISTAN: DEVELOPMENTS IN U.S. POLICY AND 
                                FUNDING

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 29, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
62-161                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2245524d62415751564a474e520c414d4f0c">[email&#160;protected]</a>  

                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                     Paul Arcangeli, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, April 29, 2010, Security and Stability in Pakistan: 
  Developments in U.S. Policy and Funding........................     1

Appendix:

Thursday, April 29, 2010.........................................    31
                              ----------                              

                        THURSDAY, APRIL 29, 2010
  SECURITY AND STABILITY IN PAKISTAN: DEVELOPMENTS IN U.S. POLICY AND 
                                FUNDING
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     4
Paxton, Lt. Gen. John M., Jr., USMC, Director of Operations, J-3, 
  Joint Chiefs of Staff..........................................     6
Shapiro, Hon. Andrew J., Assistant Secretary, Bureau of 
  Political-Military Affairs, U.S. Department of State...........     8

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele, jointly with Lt. Gen. John M. Paxton, 
      Jr.........................................................    42
    McKeon, Hon. Howard P. ``Buck''..............................    38
    Skelton, Hon. Ike............................................    35
    Shapiro, Hon. Andrew J.......................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  SECURITY AND STABILITY IN PAKISTAN: DEVELOPMENTS IN U.S. POLICY AND 
                                FUNDING

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 29, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    This morning we have with us the Honorable Michele 
Flournoy, Under Secretary of Defense for Policy, at the 
Department of Defense; Lieutenant General John M. Paxton, Jr., 
Director for Operations for the Joint Chiefs of Staff; the 
Honorable Andrew J. Shapiro, Assistant Secretary for Political-
Military Affairs for the Department of State.
    We welcome you and thank you for being with us.
    Before we begin, let me remind members that this is open, 
so today's discussion should be solely involving unclassified 
matters and not matters of national security classification.
    Pakistan's continuing security challenges have serious 
implications for our national and homeland security, for our 
efforts in Afghanistan, as well as for security in that region. 
In fact, there is no security relationship in the world today 
more important than the relationship between the United States 
military and the military of Pakistan. This relationship has 
experienced its ups and downs over the years, but today as we 
speak, it is solid and it must remain so if we are to serve the 
interests of both nations.
    The relationship is founded on the fact that our national 
interests are aligned in fundamental ways. It is also sustained 
by the personal and professional relationship between the two 
nations' officer corps, and not least by the mutual support we 
provide each other in the fight against Al Qaeda and the 
Taliban.
    This committee has authorized a large share of the funding 
for the support we provide to Pakistan, and we are deeply 
interested in the logistical and operational support they in 
turn provide to our country.
    I am pleased that the Administration's strategy for 
Pakistan is already showing signs of success, success due in 
large part to the increase in Pakistani operations, which have 
been largely successful.
    I applaud the recent detention of senior Taliban leaders 
inside Pakistan, the increased cross-border collaboration 
between Pakistan and Afghanistan, and the growing popular 
support for our shared counterterrorism activities.
    However, there is still a long way to go and, frankly, a 
lot of hard work. ``Hold'' and ``build'' capabilities are 
integral to counterinsurgency operations in Pakistan but they 
are not yet developed. Pakistan must have the civilian capacity 
needed for long-term security and stability in the country. 
Moreover, there is a need for greater international 
contributions to Pakistan.
    The Administration's recent report to Congress on metrics 
for Pakistan, frankly, was a disappointment. While the 
Administration has developed good metrics and we are assured 
that you are tracking them, very little of this information has 
actually been provided to us in Congress. I trust that this 
deficiency will be corrected very quickly.
    The information we are missing is important, because the 
Administration has requested significant resources from 
Congress and the American people to continue efforts to support 
the country of Pakistan. The administration's fiscal year 2011 
request includes an additional $1.6 billion for the CSF 
[Coalition Support Funds] and $1.2 billion for the State 
Department's Pakistan Counterinsurgency Capabilities Fund. In 
addition to examining the justifications for these amounts, the 
committee remains interested in determining what the future is 
for the CSF as they wind down Operation Iraqi Freedom.
    Again, we thank you so much for being with us today. We 
look forward to your testimony.
    To Under Secretary Michele Flournoy, she has become a good 
friend, and you have been here a good number of times sharing 
your wisdom with us. We are especially pleased to have you once 
again.
    The Chairman. Mr. McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 35.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And thank you for 
holding today's hearing on Pakistan.
    This morning's discussion gives us an opportunity to focus 
on our policy toward Pakistan and the types of tools that have 
been critical to expanding our partnership with Pakistani 
Security Forces.
    I would also like to welcome our witnesses. I look forward 
to your testimonies and to candid dialogue.
    Mr. Chairman, I would like to take a brief moment and 
highlight some key issues and submit my formal statement for 
the record.
    The Chairman. Without objection.
    Mr. McKeon. Almost 1 year ago today, this committee held a 
similar hearing focused on Pakistan. While much has evolved 
over the last 365 days, three things have remained the same:
    First, it remains in our national interest to defeat Al 
Qaeda and its extremist allies and ensure that they will have 
no safe havens from which to attack the American people.
    Second, Pakistan continues to be engaged in a tough fight 
against a complex insurgency.
    Third, Pakistan is an essential partner to the United 
States, both in the near and long term, and we must remain 
committed to building trust between our two Nations.
    While all of these factors were important to informing our 
overall approach to Pakistan and how we resource that effort, I 
would like to focus on the security environment in Pakistan. It 
is my view that the traditional peacetime framework for 
security assistance is inappropriate and no longer works. 
Despite Pakistan's increased military operations, Pakistan is a 
nation that is more appropriately comparable to a combat zone, 
such as found in Afghanistan, and should be treated as such.
    That is why I supported the Administration's original 
request for a new authority and funding stream which resembled 
our train and equip efforts in Iraq and Afghanistan.
    Last year, Under Secretary Flournoy testified to this 
committee that the Pakistan Counterinsurgency Capability Fund, 
or PCCF, will align authorities and funding to develop 
Pakistan's capability in current counterinsurgency operations 
with DOD's [Department of Defense] responsibility to implement 
the security portion of the Afghanistan-Pakistan strategy, 
including our own current operations. I agreed then and I agree 
now.
    Unfortunately, the next day Secretary Gates and Secretary 
Clinton ignored their own strategy and decided that the PCCF 
authority will reside in the State Department. It remains to be 
seen how the State Department will manage the PCCF authority 
and if it has the right culture and capacity to adequately 
respond to the wartime needs in Pakistan.
    In my mind, I still question the rationale to move PCCF to 
State when DOD has proven its ability to execute similar 
programs in Iraq and Afghanistan. I also think it is fair to 
question if Congress will appropriate this year's money without 
strings attached and in a manner consistent with wartime 
contingencies.
    Mr. Chairman, I think our committee should continue to 
closely monitor the execution of PCCF and ensure the CENTCOM 
[U.S. Central Command] Commander, through the Office of Defense 
Representative for Pakistan, maintains the speed and 
flexibility needed to take advantage of emerging and urgent 
opportunities with the Pakistan military.
    Pakistani Security Forces have increased their operational 
tempo and are improving their capacity to conduct 
counterinsurgency operations against insurgent networks on its 
side of the border. It is in both our nations' strategic 
interest to see this momentum continue.
    However, as you all know, clearing is only one phase of an 
effective counterinsurgency strategy. As we have learned in 
Iraq and Afghanistan, the ``hold'' and ``build'' phases are 
equally important. I would like our witnesses to comment on the 
recent notification to Congress to use economic support funds 
to provide quick impact, small-scale assistance to benefit the 
local population. It seems to me that such funds are critical 
to building upon last year's military gains.
    Lastly, I think Congress should also consider Coalition 
Support Funds under this wartime paradigm. Let me be clear. It 
is our congressional prerogative to conduct oversight and 
scrutinize funding, including CSF or any other funds in that 
matter. But we must balance accountability with supporting 
Pakistan's ability to adapt and respond to the fluid and 
dynamic security situation on the ground.
    I hope to hear from our witnesses today why the CSF is 
critical to Pakistan's will and ability to conduct military 
operations and how we are working with the Government of 
Pakistan to ensure that such reimbursing efforts directly 
support U.S. military operations in Afghanistan.
    Again, thank you for being here. I look forward to your 
testimony and discussion. Thank you. I yield back.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 38.]
    The Chairman. I thank the gentleman from California.
    Ms. Flournoy, Under Secretary of Defense, you are on.

STATEMENT OF HON. MICHELE FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Mr. Chairman and Congressman McKeon, 
distinguished members of the committee, thank you very much for 
inviting this panel here today to testify on the growing U.S.-
Pakistan strategic partnership. The Administration's core goal 
in this region remains consistent: to disrupt, dismantle, and 
defeat Al Qaeda and ensure elimination of Al Qaeda's safe 
havens in the region. Pakistan is a critical ally in these 
efforts, and the U.S. and Pakistan also have shared interests 
that extend far beyond countering violent extremism.
    President Obama has charged us with building an effective 
partnership, one that advances U.S. interests while 
demonstrating to Pakistan that we will remain a strong 
supporter of Pakistan's security and prosperity over the long 
term. To build such an enduring partnership, we must strike the 
right balance between civilian and military cooperation.
    On the security side, our programs are designed to 
strengthen Pakistan's capacity to target violent extremist 
groups that threaten both of our countries, the region, and the 
world. We have reiterated our long-term commitment to Pakistan 
through senior-level engagement by DOD leadership. We have 
increased the amount and the responsiveness of our security 
assistance. And in Pakistan itself, the Office of Defense 
Representative Pakistan, ODRP, has also deepened our day-to-day 
relations with our Pakistani defense colleagues. The close 
coordination between ODRP and Pakistani Security Forces 
represents a good working model for monitoring assistance and 
ensuring accountability.
    While it is certainly too early to fully evaluate the 
success of our approach, we believe that our efforts to 
demonstrate the strong and enduring U.S. commitment to Pakistan 
are bearing fruit. Over the last year, the Government of 
Pakistan has demonstrated a significantly increased commitment 
to combating violent extremist organizations that use its 
territory.
    When I testified on the subject last March, violent 
extremists were entrenched along Pakistan's western border and 
expanding their influence into the settled areas of Pakistan. 
Devastating attacks on cities from Islamabad to Lahore led to a 
public outcry and a galvanizing of Pakistani political will to 
combat these violent extremist organizations.
    In the last year, Pakistani Security Forces have taken 
unprecedented military action, recapturing significant 
territory from insurgent groups. Their actions have disrupted 
Al Qaeda and its affiliates in the border regions. And their 
perseverance in the face of significant casualties, nearly 
4,000 in 2009 alone, testify to their commitment to the fight.
    But even with the momentum of recent operational successes, 
Pakistan still faces a Herculean task. The threat of militant 
violence against the Pakistani state continues. The human cost 
of that violence and the instability that it has engendered is 
incalculable; and the financial strain is taking an enormous 
toll on Pakistan's economy.
    The United States faces three significant hurdles in our 
efforts to assist Pakistan: capacity, threat perceptions, and 
mistrust of the United States.
    When it comes to capacity, Pakistan's Security Forces have 
improved their ability to clear territory, but this progress 
remains fragile. Pakistan must also have the capabilities to 
translate tactical successes into permanent elimination of 
militant and terrorist safe havens. In particular, we must help 
Pakistan build the capacity of its civilian agencies to more 
rapidly move development and government resources into areas 
that have been cleared by the military.
    Another challenge relates to Pakistan's threat perceptions. 
Although extremist attacks have led to the repositioning of 
substantial Pakistani forces, Pakistan's strategic concerns 
about India remain preeminent. We must continue to reassure 
Pakistan that as it combats the terrorist threat, it is not 
exposing itself to increased risk along its eastern border.
    A final hurdle frankly relates to the legacy of mistrust 
between the United States and Pakistan. Past U.S. sanctions, 
Pakistani concerns about the growing U.S.-India relationship, 
its skepticism about U.S. staying power in the region, have 
made it a wary partner. Similarly, reports of Pakistan's 
tolerance and support for some violent extremist groups have 
created skepticism on the U.S. side. This is a partnership that 
is absolutely vital to our national interests, but it is also 
complex; and the need for candid dialogue and mutual 
reassurance remains very strong. And I believe we have made 
substantial progress in this regard over the last year.
    We do believe we are on the right path. U.S.-Pakistan 
cooperation in the form of material assistance, training 
assistance, operational coordination, and reimbursement for 
their operational costs have been critical enablers to 
Pakistani progress against insurgents and has helped to build 
trust. The Pakistan Counterinsurgency Fund, or PCF, has proven 
to be particularly effective in expanding Pakistan's 
counterinsurgency capabilities.
    The flexibility of this funding has allowed DOD to take 
advantage of emerging opportunities to equip, train, and 
coordinate with Pakistani Security Forces. It allowed, for 
example, the overhaul of a dozen Mi-17 helicopters which were 
used extensively in the counterinsurgency campaign in the Swat 
Valley. In addition, courses in intelligence analysis, civil 
military operations, and the law of armed conflict have helped 
prepare Pakistani military and Frontier Scouts for 
counterinsurgency operations. DOD has also supported enhanced 
coordination both with Pakistan and across the border.
    In using PCF, we have helped to establish several 
intelligence fusion centers. Overall, this close coordination 
and this training relationship has proven an effective antidote 
to mistrust. In addition, Coalition Support Funds have allowed 
us to reimburse Pakistan for their logistical, military, and 
other support to our overseas contingency operations, 
particularly support to Afghanistan operations. And prompt 
payment of CSF claims, while ensuring careful assessment, is 
absolutely critical to sustaining Pakistan's willingness to 
continue to conduct combat operations.
    Finally, we strongly agree with our State Department 
colleagues about the importance of a multiyear security 
assistance package for Pakistan, one that includes substantial 
and predictable levels of Foreign Military Financing (FMF). FMF 
is the foundation of our long-term bilateral military-to-
military relationship and such a multiyear package would 
further strengthen our long-term relationship with Pakistan.
    Mr. Chairman, distinguished members, our partnership with 
Pakistan is fraught with challenges but it remains vital to our 
overall goal of disrupting, dismantling, and defeating Al 
Qaeda, and enhancing stability in a critical region.
    I want to thank you all once again for the committee's 
support for these endeavors and for the opportunity to testify 
today. We look forward to further discussion and to working 
closely with you in the future. Thank you.
    [The joint prepared statement of Secretary Flournoy and 
General Paxton can be found in the Appendix on page 42.]
    The Chairman. We thank you so much.
    General Paxton, welcome, and we appreciate your testimony.

 STATEMENT OF LT. GEN. JOHN M. PAXTON, JR., USMC, DIRECTOR OF 
             OPERATIONS, J-3, JOINT CHIEFS OF STAFF

    General Paxton. Good morning, Mr. Chairman. Thank you for 
the opportunity. Congressman McKeon, and other distinguished 
members of the committee. Let me begin by thanking you for your 
continued support for our men and women in uniform and across 
the globe. I am honored to have the opportunity to appear 
before the committee this morning to report on Pakistan and the 
vital military and security assistance we provide the Armed 
Forces in our common fight against violent extremism.
    I would like to start by reiterating Under Secretary 
Flournoy's point that a stable and secure Pakistan is of vital 
strategic importance to the United States. Their fight against 
violent extremism is directly aligned with our goals and 
interests in the region. We must see Pakistan's efforts to 
combat violent extremism as our own, and we must remain 
steadfast in our commitment to developing their abilities to 
wage an effective counterinsurgency campaign.
    Thus far, our military and security assistance has indeed 
been instrumental in enhancing their effectiveness and success 
and that of the ongoing efforts of the Pakistani Security 
Forces.
    As events of the past several years have made painfully 
clear, the Pakistani state and society are under direct threat 
from Al Qaeda, from Pashtun jihadi groups such as Pakistani 
Taliban, as well as several Sunni Deobandi and Salafi jihadi 
groups operating in the country. These violent networks pose 
danger not just to Pakistan or to South and Central Asia, but 
to the entire globe, including our U.S. homeland.
    Given this reality, it is imperative that the United States 
encourage and support the Pakistani Government, military, and 
people in their fight against military extremists operating 
inside their own borders.
    Pakistan's traditional defense posture is, and always has 
been, geared to conventional military conflict with India and 
not to counterinsurgency. Consequently, prior to Pakistani 
Taliban's audacious foray into the Swat Valley approximately 1 
year ago, Pakistani leadership was reluctant to acknowledge 
such groups as serious threats to their state security.
    In the past, Pakistan approach to dealing with violent 
extremists, relied primarily on limited and often inconclusive 
military operations as well as tenuous cease-fire agreements, 
all of which collapsed immediately. Pakistan's approach to 
military networks changed when these militants began directing 
their violence inwards against the Pakistani state, people, and 
society.
    Over the past year, through concerted military campaigns in 
the Federally Administered Tribal Areas, or FATA, and in the 
North-West Frontier Province (NWFP), now the Khyber-
Pakhtunkhwa, previously known as the NWFP, Pakistan has 
demonstrated increased resolve in its efforts against the 
Pakistani Taliban and other Al Qaeda-allied movements.
    Months of intense operations in the FATA's Peshawar agency 
have greatly diminished the presence of the Pakistani Taliban 
and subsequently disrupted and displaced the Al Qaeda in the 
process as well. Late last month, military-launched operations 
in Orakzai Agency, which, while ongoing, resulted in modest yet 
positive territorial gains.
    All of these gains highlight the Pakistani military's 
recent success in clearing territory formerly under the de 
facto militant control, which is a direct consequence of the 
equipping and training provided through the Pakistan 
Counterinsurgency Fund, or PCF, and other funding authorities 
such as the Coalition Support Funds all of which has been 
positively enabled by this committee and Congress.
    The security and military assistance we provide has notably 
improved the efficacy of Pakistan's ongoing counterinsurgency 
campaign both in the FATA and in KPK [Khyber-Pakhtunkhwa].
    However, as Under Secretary Flournoy noted, simply clearing 
these areas of these militants is insufficient, and this 
progress would be undermined if the Pakistani Security Forces 
are unable to hold and gradually build in these areas.
    The Office of the Defense Representative of Pakistan, or 
ODRP, has recently noted the trickling in and return of 
militants in previously cleared areas. This risk underscores 
the importance of providing assistance that continues to enable 
the Pakistanis to move permanently to dismantle extremist 
networks and eliminate their safe havens.
    Permanent control of these territories will require the 
development of an effective civilian governance capability, 
institutions, and personnel. Establishing and developing this 
capacity will certainly be a key challenge Pakistan will face 
in its efforts to hold and build within these areas.
    The local populace must see and believe that the government 
presence will be enduring and positive. However, this longer-
term objective can only be achieved if the Pakistani Security 
Forces are actually capable of ensuring the civilian security 
in the area. Accomplishing this goal will necessitate that 
military and paramilitary forces are trained and equipped not 
only to maintain security, but, in the interim, to also meet 
the immediate humanitarian and civilian needs of the local 
populations. Our continued support through PCF and CSF is 
helping to guarantee that all of this happens.
    Continued military and security assistance to Pakistan's 
counterinsurgency efforts will be instrumental to their success 
in dismantling and defeating the extremists within their 
country's borders. Our technical, financial, and material 
assistance has already enabled Pakistan to address this 
challenge far more aggressively than ever in the past.
    Deepening our ties and relationships with Pakistan will 
enable their government and security forces to continue 
pursuing objectives that are in the vital interest of both of 
our Nations.
    Mr. Chairman, committee members, thank you again for 
inviting us and for the opportunity for being with you this 
morning. Under Secretary Flournoy and I look forward to your 
questions.
    The Chairman. General, thank you very much.
    [The joint prepared statement of General Paxton and 
Secretary Flournoy can be found in the Appendix on page 42.]
    The Chairman. Mr. Shapiro.

   STATEMENT OF HON. ANDREW J. SHAPIRO, ASSISTANT SECRETARY, 
 BUREAU OF POLITICAL-MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE

    Secretary Shapiro. Chairman Skelton, Ranking Member McKeon, 
members of the committee, thank you for the opportunity to 
testify on how the State Department's security assistance 
programs contribute to our partnership with the Government of 
Pakistan and the security of the region.
    As Secretary Clinton said last month, it is clear that our 
partnership with Pakistan and progress on the ground are key to 
the security of the United States. The Secretary's visit to 
Pakistan last fall and the successful March 24 and March 25 
U.S.-Pakistan strategic dialogue meeting have helped to place 
our partnership on a significantly stronger foundation.
    In this regard, I want to talk about the important role 
that State Department-managed security assistance programs play 
in Pakistan.
    Our security assistance efforts complement the substantial 
assistance being provided to Pakistan's civilian authorities 
and organizations, consistent with the Enhanced Partnership 
with Pakistan Act and the President's pledge of a long-term 
partnership with Pakistan.
    The Bureau of Political-Military Affairs manages assistance 
for Pakistan through three accounts: Foreign Military 
Financing, FMF; International Military Education and Training, 
IMET; and the Pakistan Counterinsurgency Capability Fund, PCCF. 
Effective management and execution of these programs is a major 
priority for the Bureau. In fact, I just visited Pakistan in 
March to discuss in greater depth the security assistance 
programs that we manage there.
    FMF is the foundation of a long-term U.S.-Pakistan security 
relationship. It supports the transformation and modernization 
of Pakistan's military through equipment upgrades and 
acquisitions. In addition to developing Pakistan's long-term 
counterinsurgency and counterterrorism capabilities, FMF 
enhances the ability of Pakistan's military to meet its 
legitimate defense needs and play a greater role in improving 
regional security.
    The IMET program is crucial to U.S. efforts to deepen the 
U.S.-Pakistani partnership. IMET helps to enhance the 
professionalism and development of Pakistan's future military 
leaders. IMET is central to our efforts to allow Pakistani 
military officers to interact with members of the U.S. military 
and build personal relationships.
    The Administration has requested $1.2 billion in fiscal 
year 2011 for the Pakistan Counterinsurgency Capability Fund in 
order to accelerate the development of Pakistan's capacity to 
secure its borders, deny safe haven to extremists, fight 
insurgents, and provide security for its population.
    Fiscal year 2011 will be the first year the State 
Department assumes full management of PCCF. We take this 
responsibility very seriously and are confident that we have 
the capability and capacity to successfully execute PCCF. 
Moreover, State and DOD share the goal of a seamless transition 
for PCCF that has no discernible impact on U.S. implementers 
and Pakistani forces in the field.
    PCCF funds will continue to build the capability of 
Pakistan's Security Forces directly engaged in combat 
operations to clear and to hold terrain in contested areas. 
Supporting a better trained and equipped security force is 
critical to our complementary efforts to work with Pakistan's 
civilian government to implement our $7.5 billion five-year 
civilian assistance strategy, which includes efforts to help 
Pakistan provide basic services in areas vulnerable to 
extremists.
    My Defense Department colleagues and I are committed to 
continuing to work with your committee, other DOD oversight 
committees, and our own State Department oversight committees, 
and to keep you fully informed of developments on this critical 
program.
    While PCCF will help enable Pakistan's Security Forces to 
clear and hold terrain, the security situation in the Federally 
Administered Tribal Areas is likely to complicate build-
transfer efforts for some time. Therefore, the State Department 
is planning to transfer $10 million in economic support funds 
to DOD to enable U.S. military personnel to provide rapid 
humanitarian and community stabilization projects to help hold 
conflict-affected areas. This will help fill a short-term 
assistance gap in areas where clearing operations are ongoing 
and there are acute civilian assistance needs which civilians 
cannot currently access.
    In addition, we are working with Pakistan to find ways to 
afford civilians safe access to forward areas.
    As I mentioned, we are also making a long-term commitment 
of nonmilitary assistance to Pakistan which is targeted at 
helping the Pakistani people overcome the political, economic, 
and security challenges that threaten Pakistan's stability.
    With the $7.5 billion in civilian assistance authorized in 
the Enhanced Partnership with Pakistan Act, we are moving 
towards the effective balance between civilian and military 
assistance required to help Pakistan reach a more secure and 
prosperous future.
    Thank you again for the opportunity to discuss these 
important programs and initiatives with you. I look forward to 
taking your questions.
    The Chairman. I thank the gentleman.
    [The prepared statement of Secretary Shapiro can be found 
in the Appendix on page 51.]
    The Chairman. Mr. Shapiro, you mentioned the IMET program 
which is, as you know, the program that allows officers as well 
as others to come to our country to learn about things 
military; in particular, the war colleges which this committee 
has been very active in reviewing from time to time.
    There was a time when our relations with Pakistan for all 
intents and purposes were cut off, at least the military. And 
the IMET program suffered. And during that period of time--I 
think it was eight years, I think I'm right--during that time, 
a whole generation of Pakistani officers did not have the 
opportunity to come to this country and make associates and 
friends.
    How has that affected today's operations with the Pakistan 
military?
    Secretary Shapiro. I will start off by saying clearly we 
agree that the IMET program is critically important and that 
that gap was unfortunate because we did miss out on the 
opportunity to develop those relationships with Pakistani 
military leaders. However, we are engaging once again. We have 
IMET. Our IMET program is--we spend more on IMET with Pakistan 
than nearly any other country, because of the importance that 
we place on it. And we are seeing the results of that with a 
new generation of military officers which are able to benefit 
from that training.
    The Chairman. I understand all of that, but you are not 
answering my question.
    My question is: How did that gap of seven or eight years 
affect our military relationships with Pakistan?
    Secretary Shapiro. Clearly, there was some cost. But that 
is one of the reasons why it is so important for us to develop 
a relationship that is based on a partnership, going forward, 
to demonstrate that we are there for the long haul because of 
that history.
    The Chairman. Do you have some comments?
    Secretary Flournoy. If I could just add what we find now is 
we have actually a number of senior Pakistani military officers 
who came through IMET before the ban, who remember their time 
in the United States, know their U.S. colleagues, et cetera. We 
have the youngest generation who has come through in recent 
years since we have been rebuilding the program.
    But in the middle, in the sort of field-grade officer 
ranks, we really did lose a generation or an opportunity to 
build those kinds of relationships and that essential 
familiarity and trust. And we are now scrambling to try to find 
other ways to engage them and to rebuild that. But it did have 
quite an impact in terms of the basic relationships between the 
two militaries, and we will spend a long time recovering from 
that.
    The Chairman. Thank you.
    I understand there are two reports on Pakistan that were 
due to our committee yesterday. One is an interagency progress 
report, and the second is a Department of Defense report 
regarding possible alternatives to the Pakistan Coalition 
Support Funds. My question is, when will they be delivered?
    Secretary Flournoy. I knew you were going to ask about 
that.
    The Chairman. Do you have them with you?
    Secretary Flournoy. I don't have them with me. But the one 
on CSF and alternatives just got to my office. I will sign it 
out first thing when I get back----
    The Chairman. What about the other one?
    Secretary Flournoy. The second one is, something that as 
you mentioned, it was supposed to be signed out by the 
President. We are seeking to have the President delegate that 
authority to sign, for the Secretary of Defense to sign----
    The Chairman. Is it complete?
    Secretary Flournoy. Yes. That is the issue; we have to get 
the delegation of authority to sign. We aim to have those to 
you, certainly the first one by the end of this week; and 
hopefully the second one, if not early next week. So we are 
working very hard to get those to you.
    The Chairman. Thank you so much. We look forward to 
receiving them.
    Mr. McKeon.
    Mr. McKeon. Thank you Mr. Chairman. Just to follow up on 
the Chairman's question on IMET.
    Apparently that gap when they weren't sending people to 
work with our people at that school has caused some, as you 
mentioned, some problems going forward, and we will have to 
work to fill in that gap. So it sounds to me that you are 
saying IMET is very important in our military operations.
    Secretary Flournoy. Absolutely. It is absolutely critical.
    Mr. McKeon. I am sure that is something that we will be 
addressing again as we go through the markup of our bill this 
year.
    Under Secretary Flournoy and General Paxton, during the 
last year, the people and leaders of Pakistan have been 
increasingly drawn to see militant and extremist groups as a 
serious threat to their internal security. We have also seen 
Pakistani Security Forces step up in their operations against 
the insurgency with increased urgency and skill.
    What has changed since our last hearing on Pakistan? What 
role has CSF and PCF played? And how do Pakistan's efforts tie 
into our broader strategic goals in the region, both in the 
near and long term?
    Secretary Flournoy. I think several things have changed in 
the last year. The most important is the threat in Pakistan 
went from being one that was sort of in the border regions to 
one that came home to Pakistanis who live in the major cities 
of Pakistan, with direct attacks on Lahore, Islamabad, 
Peshawar, et cetera. And the threat came home to the Pakistani 
people. And I think it galvanized their political will to see 
this not just as Pakistan assisting the U.S. in its fight, but 
Pakistan having its own security challenge that they had a 
vital interest in dealing with. And so we have seen a huge 
shift in political will that has translated into a much greater 
level of military commitment to the fight.
    The OPTEMPO [operational tempo] is quite high. They have 
taken casualties and have not been deterred from continuing in 
the face of those casualties. The sacrifice has been quite 
substantial on their part. And we have also seen them--I think 
another thing that is changing, that is less tangible, is their 
assessment of our commitment to them and to the region, our 
staying power; because that fundamentally affects their 
calculus in how they are going to play the cards in their hand, 
if you will.
    And I think the fact that we have been extremely responsive 
with PCF, and now PCCF, to meet their immediate operational 
needs, the fact that we have followed through to reimburse them 
since 2001 with over $7 billion of CSF for their operational 
support to us, and the fact that we have engaged them in a 
strategic dialogue that is going beyond fighting violent 
extremism to addressing their more fundamental energy needs--
water, strategic perspective on the region--they, I believe, 
are starting to believe that we are actually committed to their 
security and the security of the region, and that is 
translating into greater willingness to work with us.
    General Paxton. Sir, I certainly support both points that 
Under Secretary Flournoy made.
    I think there is a third piece at the front end that has 
changed significantly in the last year, and that is the success 
of the allied and coalition operations in Afghanistan. I think 
we should never lose sight of the fact that the border is 
certainly porous and the increased success of the ISAF 
[International Security Assistance Force] and the coalition 
forces as well as the stepping up of the Afghan Security Forces 
has put pressure on those militant groups, and many of them 
have not only fled physically across the border, but have taken 
and tried to increase the OPTEMPO in their base camps, and 
perhaps have either gotten frustrated with the pressure or 
perhaps a little bit more brazen. And that was part of the 
assessment from the Pakistani side, that they were under threat 
there because it was very visible to them that the safe havens 
and the sanctuaries were actually originating inside their 
border and they had to do something about them.
    And then the second follow-on piece, I think, is because of 
our resolve and commitment, they felt that they could take some 
calculated strategic risks and move forces that had been 
aligned and allied against India and the conventional threat, 
and they had to move them up in the FATA and the Northwest 
Frontier provinces.
    So our presence, their presence, the pressure on the 
militant groups, all serve to kind of galvanize them; and then 
consequently, some of their initial operations met with success 
on the ground. And then our continued resolve and staying 
power, I think all of those put together have given them a 
sense of both capacity and will, sir.
    Mr. McKeon. Has India pulled some of their troops from 
their border?
    General Paxton. Yes, sir. I think probably on the 
intelligence side, we would want to answer that in closed 
session. But there is, and we have made overtures, obviously, 
that trying to diminish the feeling of threat there will have 
mutual benefits and a lessening of tensions within the region. 
And I think we have good partners and allies on both sides of 
the India-Pakistan equation, sir.
    Mr. McKeon. Good. How would you assess the current security 
environment in Pakistan? If we had to plot it on a spectrum, 
would it fall under or closer to the heading of a nation at war 
or a nation at peace? How does the country see itself?
    Secretary Flournoy. Sir, I think that when you talk to 
Pakistani interlocutors, they feel that they have a serious 
threat on their hands with regard to the violent extremists. 
That said, I think there is a growing sense of confidence that 
they are dealing more and more effectively with them.
    The military successes that General Paxton mentioned in the 
tribal areas, but also our counterterrorism cooperation, 
particularly against Al Qaeda, in the settled areas and 
throughout Pakistan has been quite successful. And we have had 
a number of high-value arrests through our cooperation and so 
forth.
    So they definitely feel under threat, but I think they are 
also growing in confidence in their ability to meet that threat 
and, importantly, as I said, in our commitment to them to 
address the more fundamental and long-term conditions that 
would underwrite greater stability in Pakistan.
    General Paxton. And I would agree, sir.
    I don't think the dynamic is as distinct as a nation at 
war, a nation at peace. It is probably more of a nation under 
threat or a nation under siege, and they realize that they have 
to respond now; that they have both the opportunity and the 
obligation; and that failure to do so now, things could 
conceivably get worse and get worse quickly.
    Mr. McKeon. What role does the ODRP play in executing the 
PCF program? If monies were to be delayed in the coming year, 
what would be the impact on the ability of ODRP in assisting 
the development of Pakistani counterinsurgency capabilities? 
What would be the impact of such delays on the ability of 
Pakistani Security Forces to conduct their own 
counterinsurgency operations?
    Secretary Flournoy. With the transition from the DOD PCF 
authority to the State Department PCCF authority, DOD, and 
particularly ODRP and CENTCOM, continue to play a lead role in 
helping to define the requirements of what are the capabilities 
that the Pakistani military need, obviously working with the 
Pakistanis to do that, but also in the execution of the program 
on the ground. So the money comes back to a number of DOD 
entities, DSCA [Defense Security Cooperation Agency], the 
services, et cetera, to actually execute the programs on the 
ground.
    So far, so good in terms of how this is working for the 
year that we are in, the fiscal year that we are in. I think we 
don't anticipate delays. If they were to occur, we believe they 
would be very consequential. This is PCF; PCCF actively 
supports the Pakistani military, the Frontier Scouts, those 
entities that are directly in the fight day to day, and our 
ability to remain responsive and steady is absolutely critical 
to their success on the ground.
    Secretary Shapiro. And I would just add that we are working 
assiduously with DOD to ensure that there is no impact on the 
ground for the transfer of PCCF to the State Department. And we 
are putting together a team at the State Department which will 
manage PCCF and has already engaged closely with the ODRP on 
the ground as well as CENTCOM and Joint Staff and OSD [Office 
of the Secretary of Defense] policy to ensure that there is no 
gap.
    And we have already invited and are planning to make a 
formal request to have someone from DOD join us at State 
Department for the implementation program.
    Mr. McKeon. The concern I have on the delay is I don't see 
a budget being passed. And my real concern is about 
appropriation bills being passed this year from what we see. 
Would that cause a delay?
    Secretary Shapiro. Well, you know, we still have the fiscal 
year 2010 monies to complete spending. And obviously, you know, 
we need money to be able to implement the PCCF program. But we 
are continuing to work with DOD on the completion of the fiscal 
year 2010 spend plan but clearly there would be an impact if 
there was a lack of funds to continue to provide to the 
Pakistan.
    Mr. McKeon. What about a CR?
    General Paxton. Sir, if I may, the uniqueness of the budget 
as it exists is the fiscal year 2009 monies are one-year 
monies; the fiscal year 2010 are two-year monies. So that is 
beneficial to us on the obligation and spend rate. It also is 
very timely in the transfer of responsibilities and authorities 
from DOD to State, and I think it also highlights, as much as 
the committee is able to do, the value of multiyear funding, 
sir.
    Secretary Shapiro. And we would seek and ask Congress to 
fully fund PCCF ahead of the budget.
    Mr. Spratt. Mr. Shapiro, let me pick up on that point. 
Because you sent us a budget for 2011, which has met with a 50 
percent cut in the rate of increase you are seeking in the 
Senate in its markup of the budget resolution a week ago. And 
it raises a question whether or not in the quest for 
complementarity as opposed to competition in the transfer of 
responsibilities, the Department of State is getting its fair 
share of funding to undertake and support the new mission that 
you are undertaking. You sort of pussyfoot around that issue 
here in your written statement as well as in your oral 
statement, and I think the State Department needs to state 
emphatically what its needs are.
    And one of the reasons your budget is difficult to deal 
with is that so much of it is not based on spending. It is 
supplemental spending, the previous year money that came in 
supplementals that you would like to see put in the baseline, 
but most of it is ad hoc and nonrecurring. And we need to have, 
I think, a new hand dealt to deal fairly with what your needs 
are in light of the responsibility, the additional 
responsibilities you are taking on. Would you comment on that?
    Secretary Shapiro. Obviously we are supportive of the 
Administration's budget request, disappointed by the cut, but 
we are hopeful that as the full Congress considers the budget, 
that those funds will be restored.
    Mr. Spratt. Look, half the argument is in the presentation 
of it. And if you look at your budget, base year to base year, 
there is a 15.6 percent increase at the same time the President 
is asking for a freeze in non-security funding. Very difficult 
for most Members in both parties to underwrite a 16-percent 
increase in the State Department budget at a time when non-
State, non-military things are being frozen. You have got to 
make the case.
    Secretary Shapiro. And I think the Administration has been 
arguing that the State Department spending is critical to our 
national security; that our success in Afghanistan and in 
Pakistan and elsewhere, it is critical to have the State 
Department funds.
    Mr. Spratt. My question to you is: Are you taking on 
additional funds with the additional responsibilities 
commensurate with what your needs are going to be?
    Secretary Shapiro. I mean, we have asked for additional 
funds to meet these needs that we think are critically 
important in Pakistan, Afghanistan, and elsewhere. And it is a 
critical part of the Administration's policy to fully fund 
civilian efforts, which I think we would all agree are going to 
be critical to our success.
    Mr. Spratt. We need an outline that shows us how your 
additional funding compares to your additional 
responsibilities. I think that would help your case.
    According to the staff memo that we have, there are 
substantial subsidies that have been paid to Pakistan--and to 
Afghanistan, of course--but Pakistan in particular. I believe 
the number given us by staff was about $16 billion between 2002 
and 2009, probably $20 billion between 2002 and 2010, this 
year.
    That is a substantial sum of money in a sense, but 
substantial and particular in regard to what the Pakistanis are 
putting up in the same period of time. They are spending about 
$4 billion a year, which is not at a great sum of money. It is 
2.6 percent of their GDP [Gross Domestic Product].
    How long can we sustain these payments? Will we need to 
sustain these subsidies to the Pakistani Army? Are these long-
term subvention that we should be looking at and figuring into 
the future needs; or are they ad hoc, likely to go away once we 
have achieved our mission?
    Secretary Flournoy. I think that the PCF and PCCF monies 
are really focused on the near-to-midterm, and the need for 
those will evolve with the fight, the sort of current fight. I 
think some funding streams like IMET, like FMF, really need a 
longer-term perspective where we are building a longer-term 
security relationship or rebuilding a relationship with 
Pakistan.
    I think a lot of the--and I will defer to my State 
Department colleague on this--but a lot of the investment that 
we are making on the civilian side is in areas like energy, 
infrastructure, and so forth is actually designed to bolster 
the Pakistani economy so that it can generate more of its own 
support over time.
    But I think honestly this is a critical area of national 
interest, and I think we need to have a fairly long-term 
perspective that this is going to be an assistance priority for 
the United States for a number of years going forward.
    Mr. Spratt. [Presiding.] Thank you very much.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    For each of these hearings, our professional staff prepares 
for us background material, and I would like to read a 
statement from that background material and ask you for your 
comments.
    ``Since 2003, the Army has conducted unprecedented 
counterterrorism operations in the tribal region, although such 
operations have frequently failed to subdue militants, 
alienated local residents, resulted in civilian casualties, and 
alleged human rights abuses and created hundreds of thousands 
of internally displaced persons.''
    And then in a footnote it says, ``This month's Human Rights 
Watch reported that it had documented as many as 300 
extrajudicial killings by the Pakistani military during and 
after the operation in the Swat Valley.
    Now if what we are trying to do is win the hearts and minds 
of these people in these areas, this is hardly calculated to do 
that.
    In terms of Pakistan's internal security interest and our 
long-term interest, isn't this treatment about as bad as the 
disease?
    Secretary Flournoy. Let me just say on the allegations of 
human rights abuses, we take those extremely seriously. We are 
engaging our counterparts in Pakistan on these allegations. We 
are ensuring that for DOD's part anyway--and I am sure the same 
is true is for State--but that we are all ensuring that we are 
living by both the letter and the spirit of U.S. law in terms 
of making sure everybody receives assistance, goes through the 
Leahy vetting process, people receive human rights training and 
so forth. But we are taking these allegations very seriously 
and we are discussing them with our Pakistani counterparts.
    I would say on details of that, I would be more comfortable 
discussing those in a closed session with you, sir, if you want 
to follow up.
    On the IDP question, the internally displaced people, there 
were a large number of IDPs--or there have been. One of the 
things that has actually gone relatively well in this campaign 
is a fairly rapid resettlement of those people back to their 
home villages, and I think the numbers actually bear that out. 
That continues to be a work in progress, but a lot of 
assistance has gone in that direction to help the Pakistanis 
minimize the displacement that has resulted from the campaign.
    Mr. Bartlett. It seems to me that in trying to solve one 
problem, we may be creating a different but maybe bigger 
problem, and I appreciate your concern.
    Let me read another footnote from this same report. This is 
kind of unsettling to me: Pakistan's nuclear arsenal is 
reportedly--we don't even know who controls it apparently--is 
reportedly under the control of Pakistan's Strategic Plan 
Division, which is part of the country's nuclear command and 
control mechanism and is led by General Khalid Kidwai.
    How much do we know about these people if in fact they are 
the ones controlling it, and what is their disposition toward 
the global aspirations of Islamists who are probably right of 
center?
    Secretary Flournoy. Sir, again, in an open session, what I 
can say is that we believe that Pakistan has a very solid 
command and control system for their nuclear weapons. We have 
engaged with them in discussions on these issues.
    Mr. Bartlett. But Madam, if we don't know who is 
controlling them then how do we know they are under good 
control?
    Secretary Flournoy. I do not believe that statement is 
accurate sir.
    Mr. Bartlett. You don't believe that statement is accurate?
    Secretary Flournoy. No. I believe that we have a good 
understanding of their command and control system, that there 
are clear lines of command and control, and they have made a 
great deal of investment in the security of their nuclear 
arsenal.
    Mr. Bartlett. Do we know what their disposition is toward 
the global aspirations of radical Islam?
    Secretary Flournoy. ``They,'' meaning?
    Mr. Bartlett. Those who are in control of these nuclear 
weapons. We know that the person who created them had no 
problem in dispersing this capability pretty widely. What about 
those who are controlling them now?
    Secretary Flournoy. Again, I think this is--the Pakistani 
state, both in the civilian leadership and the military 
leadership, is dominated by people with a very secular 
orientation and with a very strong commitment to their 
responsibilities as a possessor of nuclear weapons. I would say 
again, this is something that if you would like to explore 
further, I would suggest having a closed discussion.
    Mr. Bartlett. Thank you.
    The Chairman. [Presiding.] I thank the gentleman. Mr. 
Ortiz, the gentleman from Texas.
    Mr. Ortiz. Thank you Mr. Chairman. Secretary Flournoy, 
General Paxton, Secretary Shapiro, thank you so much for 
joining us this morning and providing your insight into 
securing stability in Pakistan. You know, with our military 
relying on key supply routes in and out of Afghanistan and 
Pakistan, through Pakistan, what are we doing to ensure that 
these routes are secure and to allow for critical supplies to 
make it to our warfighters? And what is the status of the 
cross-border collaboration between Pakistan and Afghanistan? 
And what are the challenges that we still face?
    I know we are using these routes, but we want to be sure 
that our soldiers get the supplies that they need and the 
weapons that they need and whatever they need. But what are we 
doing to be sure that as things are changing and the playing 
field changes, what are we doing to protect those routes and 
protect our soldiers and make sure they get the equipment?
    General Paxton. Yes, sir. Your question is of vital concern 
not only within the Department of Defense but particularly to 
the U.S. Central Command and U.S. Transportation Command. And 
the contracts that we negotiate, either for access to our 
uniformed military, or contracting out for civilian providers, 
are each written and enforced to adequately assess and 
guarantee the security of our equipment and goods as it moves 
on the LOCs, or the lines of communication.
    In specific and to your question, sir, I would state that I 
believe that the loss and pilferage rate moving through those 
lines of communications is only between 1 and 2 percent, which 
is actually equivalent to or perhaps a little bit less than it 
is on the average elsewhere around the world. So we have a good 
track record for the security of the equipment and gear that is 
getting there right now.
    Our concern is that they operate, obviously, a different 
sense of time, distance, different sense of importance than we 
do, so I think that the current concern is that we have both 
multi-modal and multiple routes so that we can build up, not 
huge stockpiles in what we used to refer to as the ``iron 
mountain,'' but we have an adequate flow of our equipment 
between what is positioned State-side, or other areas in the 
region; what is in either Afghanistan or Pakistan and what is 
on the lines of communications, just so there is a constant 
movement; so that if we do have a disruption, either for 
security or passports and visas or whatever it is, that we have 
adequate to maintain the fight without putting troops at risk, 
sir.
    Mr. Ortiz. When you mentioned about contracting out to 
civilians now, who are they? Are they American civilians? Are 
they Pakistanian, are they Afghanistanian? And do you feel 
comfortable with who you hire? It is a matter of trust, because 
we have seen that there have been several inside jobs where 
several of our soldiers have been killed.
    General Paxton. It is a source of concern. There is a 
vetting process. There is both an enforcement process when we 
write the contracts, and then how we guarantee that the terms 
of the contract are enforced, whether we do it ourselves or 
whether we work through a second or third party, through the 
Government of Pakistan, the Government of Afghanistan, or an 
independent contractor there. And it is no different than those 
things that we have done in either Afghanistan or Iraq, and it 
is subject--we put it in terms of reference there. It is 
subject to our supervision and assessment on the metrics there, 
about how much does flow, gets there on time, gets there 
without being vandalized or lost.
    Secretary Flournoy. Sir, if I could just add, since 2001, 
the Pakistani military has made keeping these lines open and 
securing the flow of goods through them a major priority. And 
this is one of the core functions of our Coalition Support Fund 
reimbursement is to reimburse them for that critical support 
that they are providing to keep our supply lines to Afghanistan 
open.
    Mr. Ortiz. Thank you so much. My time is about up. Thank 
you so much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Franks, please.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you all for being here.
    General, I always want to say a special thank you to those 
that carry stars on their uniform. It is an indication of a 
life lived essentially for the sake of freedom and others, and 
I appreciate your service.
    General Paxton. Thank you.
    Mr. Franks. I guess I want to start by taking up, to some 
extent, where Congressman Bartlett left off. I will try to stay 
away from any areas that would even approach a classified 
nature. But I know, as you are very concerned, as well as all 
of us, that weapons of mass destruction, nuclear weapons 
falling into terrorists' hands are among our greatest fears, 
our greatest concerns. And my question revolves around, who is 
in charge of Pakistan's military and foreign policy? There is 
some debate whether that is Islamabad or the military.
    In a Washington Post op-ed on Tuesday, Ahmed Rashid wrote 
that Pakistan's military has virtually been taken out of 
control of foreign policy, and strategic decision-making has 
been taken from the civilian government. And I guess that 
question seems critical to me, given the fact that, you know, 
even General Musharraf, in coming into power some years ago, 
essentially came into power with some fairly radical backing. 
And even though he did a lot to work with us, a lot of that 
mechanism still remains in the military. And of course, the 
concern would be that someone in control of nuclear capability 
might be compromised.
    And so I guess my overall question is, is it possible to 
discern a trend on the issue as to whether the military or 
Islamabad is controlling foreign policy in that regard?
    And I will direct the question to you, General, and also to 
Under Secretary Flournoy.
    General Paxton. Thank you, sir.
    Pakistan, since the elections, is working through the 
civilian control of the military and, I wouldn't say--certainly 
a fledgling democracy, but a democracy that had been out of 
practice for some years when Musharraf cemented the power 
there. But I think, based on both civilian-to-civilian and 
military-to-military relationships, there is a respect for the 
obligations and the responsibilities on both sides of the 
aisle, whether it is a uniform or a suit. And I think that 
General Kayani is mindful of the obligation to control the 
nuclear stockpile and where it may be, but also responsive to 
where President Zardari and Prime Minister Gilani may go as the 
government continues to manifest itself.
    Mr. Franks. And you share Secretary Flournoy's general 
conclusion that those nuclear weapons in Pakistan's arsenal are 
at least secure within civilian hands or civilian government to 
control?
    General Paxton. Yeah. And again, without going into closed 
session here, I mean, we are working under the expectation and 
from our contacts that they have an adequate internal, you 
know--we might not have perfect visibility, they have an 
adequate internal assessment of what they have and where it is, 
sir.
    Mr. Franks. Secretary Flournoy.
    Secretary Flournoy. I would certainly recognize and 
acknowledge that Pakistan's military has been a very strong 
institution historically and remains a strong institution 
today.
    That said, it is also an institution that desires and 
accepts civilian control and wants civilian leadership. One of 
the things that was very striking, as we held our strategic 
dialogue with Pakistan just a month or two ago, was the 
strength of the civilian ministers who came to the table and 
played a leading role in that dialogue, from the foreign 
minister, to the finance minister, to others in the cabinet. 
And they were fully engaged with their civilian counterparts on 
our side. And so I think, if you asked for a trend, we are 
moving in the right direction.
    Mr. Franks. Moving in the right direction.
    Well, thank you. Let me ask one last question, General 
Paxton. As far as your professional duties on the strategic 
importance of the tribal districts along the Afghanistan-
Pakistan border, I know that there is a great effort to clear 
these areas, but is Afghanistan even winnable without Pakistan? 
Can it be made safe from terrorist attacks if we cannot clear 
these areas? What is your perspective?
    General Paxton. Yes, sir. I mean, obviously, we are using 
the same counterinsurgency model that met with a great deal of 
success in Iraq, but it is the shape, the clear, the hold, the 
build and then ultimately the transfer. And we have to be 
always mindful that you will not go in and clear an area unless 
you have every intention of holding it. And then when you hold 
it, you want to build it and transfer it. And you have to just 
make the assessment up front, am I going to transfer it to a 
local tribe? Am I going to transfer it to the provincial 
government? Or am I going to transfer it to a national 
government?
    And we have to do our mission analysis to make sure we go 
in with reasonable expectations about what the threat is in the 
area and what the ultimate end state of the area either should 
be or what the tribes and the people in the area can support.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you.
    The Chairman. I thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Ms. Flournoy, I am curious. About three weeks 
ago the Chief of Staff of the Pakistani Army was in town and 
met with a number of us. I believe his name is General Kayani. 
And he expressed his frustration with our State Department 
getting helicopters to him. And I think my question to him was, 
are you looking for a lift; are you looking for attack? And his 
answer was, both.
    Now, I realize there is a lot more than just delivering the 
helicopter; that you have to train the pilot, that you have to 
put together the logistics training. But I am curious, what is 
being done to address that, and what is your timeline for 
addressing that?
    Secretary Flournoy. Sir, we have worked very hard on the 
helicopter issue. I have personally put hours and hours of my 
time into this. The first thing that we focused on was 
refurbishing their Mi-17 fleet, which was quite aged, needed a 
lot of spare parts, overhaul work. We have done that.
    Mr. Taylor. Well, let's go to that point, Ms. Flournoy. 
Let's start with that. We have over 10 percent unemployment in 
this country. What is the logic of refurbishing a Russian-made 
helicopter when we make helicopters, the world's best 
helicopters, in this country?
    Secretary Flournoy. The logic there is they have them 
today. They know how to fly them. In a matter of weeks, we can 
get them airborne again to support them in the current fight.
    As a longer-term helicopter solution, we are working with 
the Pakistanis to look at a U.S. buy using FMF and so forth. 
And so that is something they may transition to.
    But in the near term, for the current fight, we had to get 
what they had up and flying, and that is where we focused our 
initial effort.
    Mr. Taylor. So what is the long-term plan to get Black 
Hawks or something like that to them?
    Secretary Flournoy. This is something we are in discussion 
with them with regard to a 5-year defense plan that we are 
working with them to develop and a multi-year approach to 
security assistance in FMF. They haven't made a decision yet on 
that, but it is something we are actively discussing with them, 
and I think they are very open to, frankly.
    Mr. Taylor. Well, my opinion is based on when the Marines, 
shortly after the fall of the Iron Curtain, thought they were 
getting a bargain on some iron ships made in the Soviet Bloc 
and modifying them and thought they were getting a bargain with 
the modifications; it ended up taking longer. We spent more 
money than purchasing an American-made product. I would 
certainly hope we would learn from our mistakes with that.
    And secondly is, I am not so sure that a 5-year plan does 
the Paks a whole lot of good. I think they need help right now. 
And I realize it takes a while to train a pilot. It takes a 
while to put together the logistics training. But I would hope 
that we would have something better than a 5-year plan in mind. 
And I would hope that you would get back to me on what that 
plan is.
    Secretary Flournoy. Sir, we are happy to do that once we 
have the details worked out with the Pakistanis.
    Mr. Taylor. Lastly, General, since you touched on it, I do 
remain concerned. I do think that one of the vulnerabilities 
that we have in Afghanistan is that 21-day transit through 
Pakistan to get almost everything the troops need.
    I am curious, has there been any sort of an uptick on 
attacks on--and I realize it is private contractors transiting 
through Pakistan, but also realize I think well over 100 
drivers have been killed so far just transiting Pakistan. What 
has been the trend as far as the security on those convoys? Is 
it getting better? Is it getting worse? I realize that you have 
opened some routes through the former Soviet republics that are 
coming from the north. But I have got to believe that the vast 
majority of the things that make it to Afghanistan still flow 
through Pakistan. So what are the trends as far as in security?
    General Paxton. Sir, if you don't mind, I certainly would 
like to take it for the record and get you back some accurate 
statistics. I believe that the trend has been relatively 
consistent. We haven't seen any major upticks either going 
through the south, through Chaman, or through either the 
Northern Distribution Network or the Khyber area. We have had 
modest increases sometimes, whether it is a bridge blown out or 
a convoy attacked, but I don't think substantively in recent 
times we have had a big increase at all.
    Mr. Taylor. But you will get back to me on that?
    General Paxton. I will get back with you, sir.
    Mr. Taylor. Within a week or so?
    General Paxton. Absolutely, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman, please.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary Shapiro, we are putting--U.S. tax dollars are 
flowing into Pakistan, and I guess this is Secretary Flournoy, 
too, to support the military buildup there, and particularly 
counterinsurgency capability of the Pakistan military. Yet the 
Pakistan military still seems to be very focused in terms of 
its capability against India. And it is building up its 
conventional capability and maintaining its conventional 
capability and not necessarily diverting enough resources of 
its own for a counterinsurgency fight. What are the initiatives 
of this Administration in terms of diffusing the tensions 
between India and Pakistan so that they can reorient their 
military to really what is their greatest threat, and that is 
Islamic fundamentalism within their own country?
    Secretary Shapiro. Well, obviously, we are very supportive 
of efforts by India and Pakistan to reduce tensions. There was 
a recent meeting between the two governments, and we want to 
continue to encourage those types of efforts. On our security 
assistance, as we mentioned, we have been focusing a lot of 
resources through PCF and PCCF toward the counterinsurgency 
fight, so our resources are being used to help them in the 
counterinsurgency fight that they have. And then our FMF is 
designed to build----
    Mr. Coffman. Let me step back. What I want to know is, is 
there a significant initiative by this Administration? 
Obviously, there is one in the Israeli-Palestinian question, 
unwelcomed by the Israelis, but is there one on the India-
Pakistan question in terms of there ought to be a major 
initiative to diffuse those tensions so that we don't have to 
subsidize their military, that their military simply reorients 
itself based on what I would see as the greatest threat, which 
is an internal problem? But they have to have a resolution of 
the India-Pakistan problem in order to divert those resources. 
So what initiative, if there is one, by this Administration, or 
is there not one?
    Secretary Shapiro. Well, I have with me Ambassador 
Holbrooke's deputy, Paul Jones, who I think would be well 
positioned to answer sort of on a regional perspective. And so 
with your indulgence, I could ask him to come up and address 
that question.
    Mr. Coffman. Please.
    Mr. Jones. Mr. Chairman, thank you.
    Mr. Coffman, thank you very much. In answer to your 
question, Mr. Coffman, it is certainly a very high priority for 
the President, for Secretary Clinton, for this Administration, 
to be as supportive as we can in reducing tensions between 
India and Pakistan. We recognize that, in order to be most 
supportive, we have to do what both countries would like in 
terms of support. So we encourage, engage where we can. What we 
have seen is an interest on both sides. And just recently, in 
fact just today, there was a meeting between Prime Minister 
Singh and Prime Minister Gilani in which they announced the 
beginning of a dialogue process at that level of foreign 
ministers, which had been interrupted after the Mumbai attacks.
    So I would say it is something we are very focused on. It 
is a very complex situation, and the United States I think can, 
it is very clear that our support is best done in a quiet 
fashion and just encouraging the process and offering the 
support to the parties that we can.
    Mr. Coffman. Thank you. Another question.
    Certainly now the Pakistan military seems to be very 
engaged in fighting the Pakistan Taliban. Have we seen any 
evidence now that they are also willing to prosecute any 
activities against the Afghan Taliban on their side of the 
border?
    General Paxton.
    General Paxton. Yes, sir. We believe with a fair degree of 
certainty that a lot of the extremists are a syndicated 
network. And they have loose ties; they have marriages of 
convenience, whether it is the Haqqani network, Commander 
Nazir, the Taliban, the TTP [Tehrik-i-Taliban Pakistan]. So 
that when you see evidence of the Pakistan security forces, 
whether it is the PAKMIL [Pakistan military], the Frontier 
Corps, when they are stepping up to take action against 
insurgents and militants locally, they are focusing obviously 
on the near-term target, who is creating the problem or 
creating the risk for them. But it is an increased evidence 
that they are willing to take on the entire syndicated network 
because they know there is movement between all of them, sir.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman, and thank you all for 
being here.
    Secretary Flournoy, maybe you can help settle this little 
factual point. But in the ranking member's opening statement, 
he said that Secretary Gates and Secretary Clinton had reversed 
themselves with regard to the Pakistan Counterinsurgency 
Capabilities Fund. My recollection was that in fact there was 
pushback from the Congress, specifically the House 
Appropriations Committee wanted to make that move, and that the 
Administration leadership responded, well, here is a way to do 
it, but it was not their preference. In fact, there was no 
reversal by Secretary Gates and Secretary Clinton. In fact, it 
was a response to the Congress saying, we are going to do this, 
what would be the best way to do it? What is your recollection?
    Secretary Flournoy. Yes, I think Secretary Gates was very 
supportive of the idea of migrating the authority to State. And 
the question was how to do that without having any negative 
impact on performance and effectiveness. And so we set up a 
transition process that we would have sort of the first year be 
kind of to State, but a passthrough directly to DOD to sort of 
give us time to set up the appropriate mechanisms at State; 
that this year would be fully a State authority, that DOD 
executes per State direction and so forth.
    So I think that is where we are now. So far, so good. It is 
working well. We have not seen any delays in terms of 
execution. And as Assistant Secretary Shapiro mentioned, we are 
working very hard to ensure State has the capacity to do proper 
oversight of our execution of the program.
    Dr. Snyder. Any comments, Secretary Shapiro?
    Secretary Shapiro. Yes. We have been working very closely 
together with DOD and indeed are very grateful for Secretary 
Gates' support for the State Department taking the oversight 
role of PCCF. And we are doing everything that we can to make 
sure that this program is administered properly. It is directly 
from the Secretary one of my top priorities, and we will not 
fail in the administration of the program.
    Dr. Snyder. Secretary Flournoy, I wanted to go back to the 
discussion about the helicopters because I didn't understand 
your exchange with Mr. Taylor. In your written statement, you 
say an urgent need for helicopters still remains. And I mean, 
they are at war. It is a huge amount of territory. The 
Pakistani military needs to be able to move troops around 
quickly, probably at multiple sites simultaneously. So I will 
take you at your word that an urgent need for helicopters still 
remains.
    Would you outline for me the specific roadblocks? I don't 
understand where the roadblocks are. At a time of war, you said 
you have been working on this. Well, they are at war; they are 
losing folks. You acknowledge it is urgent. Where are the 
specific roadblocks to them getting the helicopters I think you 
all wanted to help them with?
    Secretary Flournoy. There are two types of--their principal 
kind of workhorses are Mi-17s, which are a Russian-made system, 
and the Bell 412s, which are American made. In both cases, we 
are trying to provide spare parts, support for maintenance, 
overhaul, et cetera, to keep what they have in the air and 
flying at very high rates. In the case of the Mi-17, the 
parts--the helicopter is made by a company that is under 
sanction. So that has required us to seek a congressional--or, 
I am sorry, yes, a waiver to actually work to buy from the 
company, provide parts, provide support. But we have used a 
national security waiver to do that because we think it is so 
critical. On the Bells, obviously, that is something that we 
have had more ability to control directly, and I think we are 
moving forward in that area.
    But longer term, they need some replacement helicopters. 
They need a new breed, if you will. And so we are right now in 
discussion with them to understand exactly what their 
requirements are, what they can afford, how many they need and 
so forth. And for that mid to longer term replacement program, 
we will be looking to use FMF to support that over the coming 
years.
    Dr. Snyder. General Paxton, will your counterpart of the 
Pakistani military, how will they respond to what Secretary 
Flournoy just said? If your commander is on the ground, do they 
respond to the urgent need? I am not putting her on the spot, 
as I think we have got some bureaucratic thing, but how do they 
see the situation?
    General Paxton. Sir, everyone in the military wants more 
and wants faster. The constant dynamic we have is to educate 
them about, what is your requirement, to tell us what the 
capability is that we are going to provide, and then how can we 
best sustain it? And it goes to the discussion we had earlier 
about the value sometimes to getting the maintenance tail on a 
long-term program.
    The Chairman. The gentleman from California.
    Mr. McKeon. Just a point of clarification if I might. Mr. 
Snyder likes to always correct my statements. And it is just a 
little thing that we have, but I unfortunately was out of the 
room this time. I would like to ask one question of Secretary 
Flournoy. The original proposal that was presented to us on the 
PCCF was that it would come under the Defense Department, is 
that correct?
    Secretary Flournoy. Yes, the original proposal was that, 
and that was before we had reached--had further interagency 
discussions and worked out a transition plan that we were all 
happy with.
    Mr. McKeon. And that would be that he also requested for 
fiscal year 2010?
    Secretary Flournoy. That was the transition plan that 
Secretary Gates and Secretary Clinton ultimately recommended.
    Mr. McKeon. He may have had that plan somewhere to 
ultimately transfer, but the request was----
    Secretary Flournoy. Yes.
    Mr. McKeon [continuing]. For within the Department of 
Defense?
    Secretary Flournoy. The original request was, yes, correct.
    Mr. McKeon. Thank you very much.
    The Chairman. Mr. Wittman, please.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Paxton, Secretary Flournoy and Secretary Shapiro, 
thank you so much for joining us today. I had an opportunity 
just recently a couple weeks ago to travel to Afghanistan and 
Pakistan and had an opportunity to meet with General 
McChrystal, with President Zadari, President Karzai and also 
Prime Minister Gilani. A great trip. I left there reinvigorated 
concerning our efforts in both countries.
    Still challenges left. I think there are still things out 
there that we have to accomplish. But I got a good sense from 
our men and women on the ground there that things are going in 
the right direction and that we are making positive strides, 
and also with the leaders there and their governments that they 
are appreciative of our efforts there and they see the value of 
our efforts, so that is always an important part of that 
effort.
    When I was in Pakistan, we met with General Kayani, had a 
long meeting with him, and asked him specifically about where 
he saw the current efforts, where he saw the needs. And we were 
there with Admiral LeFever, who heads our operations there with 
our support. And we asked him also within the same context. And 
both of them say that we are gaining a significant amount of 
momentum in the fight against the Taliban. And both of them 
emphasized our long-term success is going to be tied to 
maintaining that momentum.
    And we were there meeting with General Tariq Khan with the 
Frontier Scouts and our folks there that are training them, a 
new training facility, things going in the right direction. 
Give me your thoughts about where we are going from your 
standpoint in maintaining that momentum. I know we are going to 
build some new training facilities there. But give me your 
thoughts about how we maintain that momentum, and then how do 
we make sure that we watch that momentum extend past the FATA 
and the Northwest Frontier Province?
    Secretary Flournoy. I think a key part of this is 
continuing to broaden and deepen the equipping and training and 
assisting relationship, as you noted. I think it is also as the 
Pakistan military and the Frontier Scouts have success in 
clearing areas that we help provide the broader Pakistani 
government with the resources they need to actually hold them 
and build governance capacity and the ability to provide basic 
services to the affected populations. This ESF [economic 
support funds] account that Assistant Secretary Shapiro 
described where $10 million is going to be provided for DOD 
forces to work with PAKMIL to execute hold-build assistance 
that is a start.
    I think one of the conversations the State Department will 
be having with its committees, we would like to have with this 
committee, is what additional work, what additional assistance 
can we provide in the hold-build area, and what kind of, what 
should that authority look like? And we are still 
conceptualizing that as an Administration, trying to figure out 
the best vehicles to use to ensure that it is flexible, but 
also that it can go to the right user. In some cases, it may be 
the military. In other cases, it will be a civilian agency on 
the ground.
    Mr. Wittman. General Paxton.
    General Paxton. Sir, if I may. I certainly agree with 
Secretary Flournoy and the whole-of-government approach and the 
closeness between State and Defense. The other thing, as I 
alluded to earlier, is not to ever lose site of the other side 
of the border. So there is a tri-part relationship here. And 
just as we build enduring relationships and comfort level with 
Pakistan, we want to do it with Afghanistan, and then we want 
the two of them to do it. So our efforts on border control 
points and joint coordination centers and intelligence fusion 
cells is all good and kind of diminishes the perception of the 
threat there, sir.
    Mr. Wittman. Great.
    Secretary Shapiro.
    Secretary Shapiro. I think Paul Jones is in the best 
position to talk about our efforts at economic development in 
hold-build.
    Mr. Jones. If I may just briefly, sir. We enthusiastically 
agree with the importance of the civilian side, the Pakistani 
civilian side and the international, particularly U.S., effort 
to support that. We have an extensive civilian assistance 
program that is active throughout the tribal regions in the 
Northwest Frontier Province through USAID [United States Agency 
for International Development], through Office of Transition 
Initiatives, where we are working very closely to provide 
assistance. The World Bank has just set up a trust fund where a 
number of other countries can put assistance in. It has got 
$110 million into it so far, just for those border regions, in 
a way that builds confidence.
    What we have identified, as Under Secretary Flournoy was 
mentioning, that in some areas where--specific locations where 
there has been recent clearing operations and there isn't an 
ability for Pakistani or international assistance efforts on 
the civilian side to be present there, what we thought is that 
the most appropriate use of a portion of the ESF funds is to, 
as we have outlined in testimony, to provide that for those who 
can have access in that area. And so I think that is a creative 
approach unique to this situation that we are very pleased, and 
I think it speaks to the civ-mil coordination we have in 
Pakistan.
    Mr. Wittman. And one final comment. I want to emphatically 
support the need for helicopters there in Pakistan. Having 
ridden on some 40-year-old Hueys and almost not getting on 
board, I emphatically support whatever you need to do to get 
some new air platforms there for you.
    Secretary Flournoy. Sir, we hear you. We all shared those 
experiences. I will just make one other point. And that is, in 
some cases, we may be competing with our own U.S. needs for 
helicopters in terms of getting in line for production, so that 
is a challenge.
    The Chairman. Mrs. Davis, please.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here. I appreciate it.
    Could you put in simple terms this balance that you are 
talking about of military and non-military assistance? Are we 
thinking in terms of percentages? What is it now, and where do 
you want to take that in about 3 years from now? I am trying to 
get a better handle on what that is and perhaps with--you have 
given a number of examples and you have spoken to that, but I 
am not sure whether there is a clear understanding of whether 
you are all on the same page on that.
    Secretary Flournoy. I actually think within the 
Administration, there is a very strong shared sense of where we 
are trying to go. We have gone from a situation where the bulk 
of our aid was on the military side. Now, for fiscal year 2011, 
if you look at our proposals, it is close to 50/50. We have 
made a substantial commitment on the civilian side. And I am 
happy to let Paul speak to this directly. But we are really 
trying to fully invest in building capacity on the civilian 
side of government, which we think is critical to underwriting 
long-term security and stability.
    Do you want to add what we are doing on the civilian side.
    Mr. Jones. If I may, we have increased dramatically to $1.5 
billion a year in civilian assistance on a 5-year commitment, 
which I think, in our view, very much mirrors the intention of 
a 5-year military commitment as well on the FMF side. We have 
dramatically changed the way we provide civilian assistance in 
Pakistan. We had been doing a lot, not in coordination with the 
government of Pakistan. And what we are doing now is going 
through and seeing how closely we can align our assistance and 
also work through accountable ministries of the Pakistan 
government and provincial administrations in order to get the 
assistance through, build capacity to the Pakistani government.
    Mrs. Davis. Is that trying to really reach individuals, or 
if you want to call them insurgents, in the FATA region, 
because there is a difference of opinion about why people there 
are fighting or not fighting against their own government?
    Mr. Jones. We work very closely in the FATA through the 
FATA secretariat, enabling them to provide small project 
assistance in communities that are vulnerable and to build 
communities' strength against extremism. We found that to be 
well received. It needs to be identified with Pakistan for 
security reasons, but also to build the capacity and the image 
of Pakistan's own capability. So that is a really critical part 
of our assistance strategy.
    Mrs. Davis. We spoke earlier a little bit about what we 
call the shadow war between India and Pakistan, at least it has 
been phrased in that way. I am sure you are aware of that 
language. And in many ways, India is playing a role also, as 
well as Pakistan to a certain extent, in building up capacity 
in Afghanistan particularly. And I am wondering, is that 
something that we are working on with them and together? Is 
that helpful, and how are we doing that road building, other 
capacities within Afghanistan and whether or not that is seen 
as more tension building in the region, or is seen as helping 
the efforts that we have and certainly the dollars that are 
flowing into the region to try and help with that capacity?
    Mr. Jones. If I may, India has been a major donor in 
Afghanistan, and we very much support that. India has made 
significant civilian investments in the areas of health, road 
building, and transportation. That has been a source of tension 
with Pakistan, as historically Afghanistan has been seen as a 
source of tension between India and Pakistan. We believe that, 
to the extent that all donors can be as transparent as they 
can, and we try to encourage the UN [United Nations] leads in 
that effort in Afghanistan, and we support it in every way we 
can, so everyone can see exactly what is being done, and that 
can ensure that it is not misunderstood by some of the 
neighbors. It is a complex neighborhood, not only between 
obviously Pakistan and India, and it is everyone's benefit to 
understand exactly what sort of civilian assistance is being 
provided.
    Mrs. Davis. And with all that, could you just characterize 
how that is having an impact on the insurgency in Afghanistan, 
because so much of our effort has been directed to the FATA and 
to changing that. And I know that it is not a simple equation. 
In fact, I think, General Paxton, you suggested that what we 
have learned in Iraq has some applicability to Afghanistan. And 
certainly there is some, but there are a number of experts that 
would suggest that this is a different animal essentially. Can 
you--my time is up, but----
    Secretary Flournoy. I think we are seeing--one of the goals 
we set for ourselves in Afghanistan was to really shift the 
momentum, and we are seeing the earliest signs of that. The 
addition of forces in Afghanistan, the focus on a much more 
effective approach to counterinsurgency is starting to put 
pressure on the Afghanistan side of the border in the south and 
the east in particular. At the same time, you have the PAKMIL 
operations that are pressing from the other side of the border. 
At the same time, you have enhanced counterterrorism 
cooperation pressuring the leadership of Al Qaeda. At the same 
time, you have people waking up to the fact that the U.S. isn't 
leaving this region any time soon. We have made a commitment, 
and we are going to stay involved in a very long-term sense. 
The nature of that involvement will change over time, but 
politically, economically, strategically we are going to stay 
invested in this region. And I think all of that is starting to 
have a cumulative effect that is creating a lot of rethinking 
inside elements of the insurgency on both sides of the border. 
And that is exactly the kind of rethinking we want to stimulate 
ultimately.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Taylor asked about helicopters, and I am familiar with 
the request about Pakistan about helicopters. We are at war, 
and I am having a little bit of difficulty in understanding the 
lack of urgency. Is there something that I am missing?
    Secretary Flournoy. Sir, there is absolutely no lack of 
urgency. And again, the thing we could do fastest was to get 
what they have flying. And we have increased manyfold their 
capacity just by getting what they have back in the air and 
consistently operating. We are now looking at the issue of 
replacement, but frankly, we have been focusing our energies, 
first things first, on getting them up and flying with what 
they have. And they are now developing a multi-year plan that 
we will be bringing to you for replacement. I don't know if you 
want to add anything.
    Secretary Shapiro. I would just say----
    The Chairman. Would you get something to us on that in the 
very, very near future?
    Secretary Flournoy. Yes, we will.
    The Chairman. Not just what you are rebuilding, but the 
future helicopters for which they ask. Will you do that for us 
please?
    Secretary Flournoy. Yes.
    Secretary Shapiro. And I would just add that we are using 
FMF to support procurement of two Bell 412 helicopter 
squadrons, $204 million from fiscal year 2008 to fiscal year 
2011, a $60 million fiscal year 2010 sup [supplemental] request 
to the Hill supports this.
    The Chairman. I think, Mr. Shapiro, this question should be 
asked of you. We had some experts on Pakistan some time ago 
that suggested that the real key to success and the greatest 
return on our investment is on the police in working with them. 
They are not tied to the territory vis-a-vis India. Is there 
some thought to helping them more than we are?
    Secretary Shapiro. Well, that is a very timely question. 
There was--the State Department's INL [International Narcotics 
and Law Enforcement Affairs] bureau signed an implementation 
agreement with Pakistan in February 2010 that allows for 
training, infrastructure and equipment for police and aviation 
support. And the goal is to expand the number of elite police 
to recruit, vet, hire, train, and equip by July 2011 and to 
expand the infrastructure training for FATA forces as well. So 
we are devoting resources to this, and it is clearly a priority 
for us as well.
    The Chairman. Could you get us something on that in more 
detail? We would certainly appreciate it.
    Secretary Shapiro. Sure.
    The Chairman. If there are no further questions, we 
certainly thank you very much for being with us.
    Mr. Taylor. Mr. Chairman.
    The Chairman. Mr. Taylor.
    Mr. Taylor. Ms. Flournoy, you have been around long enough 
to know that we went through this with the Colombians on Plan 
Colombia, their request for Black Hawks. As a part of your 
presentation when you get back to us, will you give us how this 
is going to compare on the timeline for the delivery of the 
Black Hawks to Colombia, the training, the equipping and how we 
are doing with Pakistan, I think that would be a very useful 
benchmark.
    Secretary Flournoy. We will do that, sir.
    Mr. Taylor. Thank you, ma'am.
    Secretary Flournoy. And we would ask you all to support the 
$60 million in the supplemental for helicopters for Pakistan. 
Thank you.
    The Chairman. Thank you so much. We are certainly grateful 
for your being with us today and for your excellent testimony, 
and we look forward to seeing you again soon.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 29, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 29, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2161.018
    
    [GRAPHIC] [TIFF OMITTED] T2161.019
    
    [GRAPHIC] [TIFF OMITTED] T2161.020
    
    [GRAPHIC] [TIFF OMITTED] T2161.021
    
    [GRAPHIC] [TIFF OMITTED] T2161.022
    
    [GRAPHIC] [TIFF OMITTED] T2161.023
    
    [GRAPHIC] [TIFF OMITTED] T2161.024
    
    [GRAPHIC] [TIFF OMITTED] T2161.001
    
    [GRAPHIC] [TIFF OMITTED] T2161.002
    
    [GRAPHIC] [TIFF OMITTED] T2161.003
    
    [GRAPHIC] [TIFF OMITTED] T2161.004
    
    [GRAPHIC] [TIFF OMITTED] T2161.005
    
    [GRAPHIC] [TIFF OMITTED] T2161.006
    
    [GRAPHIC] [TIFF OMITTED] T2161.007
    
    [GRAPHIC] [TIFF OMITTED] T2161.008
    
    [GRAPHIC] [TIFF OMITTED] T2161.009
    
    [GRAPHIC] [TIFF OMITTED] T2161.010
    
    [GRAPHIC] [TIFF OMITTED] T2161.011
    
    [GRAPHIC] [TIFF OMITTED] T2161.012
    
    [GRAPHIC] [TIFF OMITTED] T2161.013
    
    [GRAPHIC] [TIFF OMITTED] T2161.014
    
    [GRAPHIC] [TIFF OMITTED] T2161.015
    
    [GRAPHIC] [TIFF OMITTED] T2161.016
    
    [GRAPHIC] [TIFF OMITTED] T2161.017
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
